HHS/OIG, Audit -"Review of School-Based Health Services in Kansas,"(A-07-03-00155)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of School-Based Health Services in Kansas," (A-07-03-00155)
February 8, 2006
Complete
Text of Report is available in PDF format (545 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was part of a multistate initiative.  Our objective was to determine whether
Kansas claimed costs for school-based health services provided by selected school districts
for fiscal year 2002 in accordance with Federal requirements and the State plan.  Kansas
claims some costs that were not in accordance with Federal requirements and the State plan.  Our
review of 300 sampled claims showed that 217 claims were unallowable for Medicaid reimbursement,
including 139 claims for services that were not rendered and 78 claims that did not have
required prescriptions or referrals.  In addition, many sampled claims lacked documentation.
We recommended that Kansas (1) refund $5.1 million to the Federal Government, (2) calculate
and refund the portion of $126.8 million (Federal share) paid to school districts outside
of our sample that does not qualify for reimbursement, (3) provide correct instructions to
schools, and (4) ensure that school districts maintain required documentation.  Kansas
did not agree with our recommendations to refund but did agree to provide correct instructions
and ensure that schools maintain documentation.